<html>
<title> - COUNTERTERRORISM POLICIES AND PRIORITIES: ADDRESSING THE EVOLVING THREAT</title>
<body><pre>[Senate Hearing 113-135]
[From the U.S. Government Publishing Office]







                                                        S. Hrg. 113-135

   COUNTERTERRORISM POLICIES AND PRIORITIES: ADDRESSING THE EVOLVING 
                                 THREAT

=======================================================================

                                HEARING

                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 20, 2013

                               __________

       Printed for the use of the Committee on Foreign Relations








[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






      Available via the World Wide Web: http://www.gpo.gov/fdsys/
                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

86-146 PDF                WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001






                COMMITTEE ON FOREIGN RELATIONS         

             ROBERT MENENDEZ, New Jersey, Chairman        
BARBARA BOXER, California            BOB CORKER, Tennessee
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
ROBERT P. CASEY, Jr., Pennsylvania   MARCO RUBIO, Florida
JEANNE SHAHEEN, New Hampshire        RON JOHNSON, Wisconsin
CHRISTOPHER A. COONS, Delaware       JEFF FLAKE, Arizona
RICHARD J. DURBIN, Illinois          JOHN McCAIN, Arizona
TOM UDALL, New Mexico                JOHN BARRASSO, Wyoming
CHRISTOPHER MURPHY, Connecticut      RAND PAUL, Kentucky
TIM KAINE, Virginia
               Daniel E. O'Brien, Staff Director        
        Lester E. Munson III, Republican Staff Director        

                              (ii)        







                            C O N T E N T S

                              ----------                              
                                                                   Page

Corker, Hon. Bob, U.S. Senator from Tennessee, opening statement.     2
Harman, Hon. Jane, director, president, and CEO, Woodrow Wilson 
  International Center for Scholars, former Member, U.S. House of 
  Representatives, Washington, DC................................     3
    Prepared statement...........................................     5
Leiter, Hon. Michael E., senior counselor to the chief executive 
  officer, Palantir Technologies, former director of the National 
  Counterterrorism Center, McLean, VA............................     7
    Prepared statement...........................................     9
Menendez, Hon. Robert, U.S. Senator from New Jersey, opening 
  statement......................................................     1
Wainstein, Hon. Kenneth L., partner, Cadwalader, Wickersham & 
  Taft, LLP, former Assistant to the President for Homeland 
  Security and Counterterrorism, Washington, DC..................    13
    Prepared statement...........................................    15

                                 (iii)



 
   COUNTERTERRORISM POLICIES AND PRIORITIES: ADDRESSING THE EVOLVING 
                                 THREAT

                              ----------                              


                       WEDNESDAY, MARCH 20, 2013

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 4:35 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Robert 
Menendez (chairman of the committee) presiding.
    Present: Senators Menendez, Murphy, Kaine, and Corker.

          OPENING STATEMENT OF HON. ROBERT MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    The Chairman. This hearing of the Senate Foreign Relations 
Committee will come to order.
    Let me first apologize to our panel. There are some things 
beyond my control, like when we vote. Unfortunately, a series 
of votes were called for 2:15, which is when we would have been 
in the midst of the hearing, and I thought they were going to 
end by 4 o'clock, by my calculation; but, sometimes the best 
calculations in the world go challenged. We just had the last 
vote, on continuing to keep the government open. So, I 
appreciate your forbearance, your willingness to stay and 
enrich the committee with your knowledge. And you have our 
thanks and our gratitude for waiting.
    Today, as we investigate counterterrorism policies and 
priorities to address the evolving threat we face, we want to 
thank our panelists for being here today.
    We know the core of al-Qaeda has been significantly 
degraded. We know that Ayman al-Zawahiri is not Osama bin 
Laden, and that the central organization is, as many have 
stated, on a path of decline that will be difficult to reverse. 
But, the threat that remains is now decentralized. We still 
live in a challenging world. Al-Qaeda affiliates and other 
emerging extremist groups still pose a threat to the United 
States and our national interests.
    Last week, this committee held a classified hearing, with 
Under Secretary Wendy Sherman and NCTC Director Matt Olsen, to 
gain a deeper understanding of the threats we face, the true 
extent of the links between and among extremist groups, and 
what that means for U.S. national interests.
    From Al Qaeda in Iraq to Al Qaeda in the Islamic Maghreb, 
from al-Shabaab to Lashkar-e-Taiba, emerging extremist groups 
use 
al-Qaeda ties for financial assistance, training, arms, and 
messaging purposes. At the same time, they are often pursuing 
independent goals. Groups like Al Qaeda in the Arabian 
Peninsula have emerged as one of the most dangerous threats to 
the United States, targeting the U.S. Embassy in Yemen, and 
making at least three unsuccessful attempts to bomb airlines 
over United States airspace.
    We also know that many of these extremist groups are 
internally divided, torn between a local agenda and more global 
set of goals. We need an effective strategy to counter these 
new threats without losing sight of al-Qaeda's beleaguered core 
in Pakistan.
    Finally, the threat from extremist groups is not just a 
military and intelligence challenge, it is a foreign policy 
challenge, as well. We ask our diplomats to operate in often 
dangerous, high-threat areas made all the more unpredictable by 
these extremist groups. As we think through ways to better 
protect our diplomats, we must also consider ways to make our 
foreign policy more resilient to these ever-changing and 
irregular threats. We need to look at every tool in our 
toolkit, from development efforts to long-term governance-
building initiatives. From Somalia to Mali, we have seen that 
weak governance only adds fuel to the proverbial fire. It gives 
extremist groups the space they need to train, recruit, and 
plan.
    We also need to refine our efforts to understand and 
address root causes of extremism and better target the 
recruitment pipeline, and we need to strengthen and build our 
global partnerships. In my view, we need to take a step back 
and look at the whole board, and see the whole picture from 
every angle if we are to develop a comprehensive 
counterterrorism policy, and that is why we are here today.
    The questions before us are clear. Yes, we have had 
tremendous success in decimating al-Qaeda, but the threats have 
shifted, and we need to know to what extent these new threats 
put us and our allies at risk. Given this new paradigm, do we 
need to revisit our approaches and reassess our overall 
strategy? How has the Arab Spring and other recent events 
changed both the threats and our options?
    To answer these questions today, we are fortunate to have 
three highly knowledgeable witnesses: Congresswoman Jane 
Harman, the director, president, and CEO of the Woodrow Wilson 
Center for International Scholars, and a former nine-term 
Congresswoman from California who has served on the Armed 
Services, Intelligence, and Homeland Security Committees; Mike 
Leiter, who is currently the senior counselor to the chief 
executive of Palantir Technologies, and the former Director of 
the National Counterterrorism Center under Presidents Bush and 
Obama; and Ken Wainstein, currently a partner at Cadwalader, 
and formerly the Assistant to President Bush for Homeland 
Security and Counterterrorism.
    Again, thanks to all of you.
    Let me turn to the Ranking Member, Senator Corker.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    Senator Corker. Thank you all. And our apologies for what 
has happened today. I think you know we had a CR that took a 
little longer than the norm, but we are glad you are here. And 
this will play a role as we shape things, going forward, even 
at 4:35 in the afternoon. So, thank you very much.
    Today, the Foreign Relations Committee is convening its 
second counterterrorism hearing of the 113th Congress, and its 
first open hearing on these matters.
    Given recent events around the world, and the growing 
influence of the al-Qaeda brand in places such as Syria and 
North and West Africa, I think the chairman's decision to hold 
these hearings is timely.
    I recently traveled to North and West Africa, where I had a 
chance to meet with key foreign leaders, our State Department, 
and other U.S. Government personnel to discuss with them the 
evolving threat posed by al-Qaeda, both in Africa and around 
the world. What struck me most clearly, when considering groups 
like Al Qaeda in the Islamic Maghreb, is that the evolution of 
al-Qaeda really requires an evolution of our response and 
strategy.
    First, the United States cannot do it all on its own. We 
must work with other countries around the world, not just 
Western countries, but the countries in which al-Qaeda 
operates, no matter how difficult. Poorly governed and 
ungoverned space presents an especially difficult challenge in 
this respect.
    Second, the evolution of al-Qaeda from a core-based entity 
to one that has nodes around the world presents an entirely 
different challenge than what we understood to be the threat in 
the aftermath of 9/11. I hope this hearing will allow us to 
have a full and frank discussion about the evolving threat 
posed by al-Qaeda, and the U.S. Government's response to this 
threat.
    In particular, I would like to discuss the need for 
Congress to play a more active role in authorizing the use of 
force, in this conflict as well as others, and the need for 
Congress to help set appropriate policies for confronting these 
threats. We must ask and answer whether the act of Congress, 
over a decade ago, that sought to address the threat of al-
Qaeda meets the requirements of today.
    We must also ask whether it is appropriate for Congress to 
play what has been largely a consultive role in the process of 
our prosecution of this war against al-Qaeda, and whether that 
meets our constitutional duties.
    I hope this hearing is the beginning of an effort by this 
committee, which has an exclusive jurisdiction in authorizing 
the use of force, to look at these hard issues and to make the 
tough calls that we were elected to make on behalf of the 
American people.
    And I thank you and look forward to your testimony today.
    The Chairman. Thank you, Senator Corker.
    With that, let me invite Congresswoman Harman to start off.
    Your full statements will be entered into the record, and 
we will look forward to having a conversation with you once you 
are finished.

 STATEMENT OF HON. JANE HARMAN, DIRECTOR, PRESIDENT, AND CEO, 
   WOODROW WILSON INTERNATIONAL CENTER FOR SCHOLARS, FORMER 
     MEMBER, U.S. HOUSE OF REPRESENTATIVES, WASHINGTON, DC

    Ms. Harman. Thank you, Mr. Chairman and Ranking Member 
Corker. I served with both of you during my long time on the 
Hill, and I commend you both for staying in the game. And I 
hope you voted to keep the Government open. Did you?
    The Chairman. Yes.
    Ms. Harman. That is a relief. Then it was worth waiting.
    The Chairman. That is a bipartisan ``yes,'' so----
    Ms. Harman. As the former Member of Congress, here, I will 
defer to my good friends for more of the tactical discussion, 
but I thought I would raise a bigger policy issue, at least it 
is one that troubles me, because I think that the Foreign 
Relations Committee needs to consider this, beyond just the 
assertion of kinetic power, to defeat--and we have defeated--
some of these enemies. And as I reflect on my own role, and the 
role of many who tried to keep us safe after 9/11, I think we 
got the tactics right, but my point today is, we got the 
strategy wrong. We have yet to develop a narrative, a positive-
sum roadmap for where we are going and why others will benefit 
by joining us.
    Stan McChrystal recently was interviewed by Foreign Affairs 
magazine, and he nailed it, at least the way I think about it. 
He said that, when he first was involved with Iraq and 
Afghanistan, he asked, ``Where's the enemy?'' As things 
evolved, he then asked, ``Who is the enemy?'' Then he asked, 
``What is the enemy trying to do?'' And finally, the question 
that he asked was, ``Why is he the enemy?'' And that is 
something that is sobering and I really think we have to think 
about.
    I am betting you agree with me that we cannot kill our way 
to victory, because kinetics alone are more likely to inflame 
than persuade. But, what is the United States doing to 
persuade? Are we coordinated? Are we delivering the same 
message? I want to say our tactics have had an impact. And, as 
you said, Mr. Chairman, we have certainly decimated core al-
Qaeda. But, now al-Qaeda has morphed into a more horizontal 
organization, and the question is, Is that growing? And are 
some of the things we are doing causing it to grow?
    I think I will skip how the threat has changed, because you 
will hear it from my friends, but just to point out that the 
10th issue of Inspire magazine is back online and as savvy as 
ever. Extremist digital natives have also created something 
called Muslim Mali. It is a computer game that simulates aerial 
combat against French fighter jets and is designed to inspire 
fellow extremists to take up arms against the French. Once a 
user clicks ``Play,'' an Arabic message appears with the words, 
``Muslim brother, go ahead and repel the French invasion 
against Muslim Mali.'' And this kind of propaganda is appearing 
in many places. And to beat this propaganda, we really have to 
win the argument with some kid in the rural parts of Yemen 
deciding whether to strap on a suicide vest or join society. 
And what I am saying is, we may not be winning that argument.
    So, quickly, let me just go to some recommendations.
    First, stop piecemeal counterterrorism policy and 
implementation. Stop stovepiped one-off CT efforts and create a 
whole-of-government strategy. Give the Department of State's CT 
Bureau more support to do its job. This is within your 
jurisdiction. The Antiterrorism Assistance Program, Countering 
Violent Extremism Grants, and coordinating efforts through the 
Center for Strategic Counterterrorism Communications, all a 
mouthful, are important, but not adequate. A more robust CT 
Bureau could help us better find the gaps in our nonkinetic 
efforts, and to fill those gaps.
    Two, smarter investments. Carefully analyze foreign aid 
budgets and find ways to plus-up funds to countries that need 
it most, and resist funding flavor-of-the-month countries.
    Third, live our values. Our actions really do speak louder 
than words. Semantics like ``rendition,'' ``enhanced 
interrogation,'' ``targeted killing'' fuel the terror 
propaganda machine. We have a perception problem and have to 
apply a matrix of our interests and our values, and test it 
against our future engagements. Again, we have got to win the 
argument, not just play ``Whac-a-Mole.'' We need a public 
conversation about tactics and strategy, and that is what this 
hearing is designed to do, and I commend you for holding it.
    Fourth, reduce overclassification of intelligence. Far too 
much information is classified. Instead of safeguarding our 
secrets, we are actually preventing ourselves from seeing the 
bigger threat picture. One of my last accomplishments in 
Congress was to author something called the Reducing 
Overclassification Act, which President Obama signed in October 
2010. I do not really know that it has led to much. I still 
think this problem needs attention.
    Finally, we have to drain the swamp. And, as a scholar at 
the Wilson Center, Aaron David Miller, suggests, we will reduce 
the pool of potential terrorists by encouraging reform efforts 
by authoritarian governments. Secretary Kerry understands this, 
and hopefully will implement it.
    In conclusion, I urge you to play a major role in 
developing this overdue strategy. After all, it is foreign 
relationships, not more foreign enemies, that we need.
    Thank you.
    [The prepared statement of Ms. Harman follows:]

                 Prepared Statement of Hon. Jane Harman

                          tactics v. strategy
    It is fitting that this committee--the Foreign Relations 
Committee--is holding this hearing. As I reflect on my own role and the 
role of many who tried just as hard to keep us safe after 9/11, we got 
many of the tactics right but the strategy wrong. We have yet to 
develop a narrative, a positive-sum roadmap for where we are going and 
why others will benefit by joining with us.
    Retired General Stanley McChrystal--former head of Special 
Operations Command and the International Security Assistance Force in 
Afghanistan--recently nailed it. In an interview in Foreign Affairs on 
Iraq and Afghanistan, he first asked ``Where is the enemy?'' As the 
engagement evolved, he asked ``Who is the enemy?'' Then, ``What is the 
enemy trying to do?'' Finally, he realized the question we most needed 
to answer was: ``Why is he the enemy?''
    This realization is bone-chilling. Many senior policymakers know we 
cannot kill our way to victory--because kinetics alone are more likely 
to inflame than persuade. But what is the United States doing to 
persuade? Are we coordinated in our actions? Are we delivering the same 
message?
    Our tactics have an impact--and playing whack-a-mole will not win 
the argument with the kid in rural Syria or Yemen deciding whether or 
not to strap on a suicide vest.
                        evolution of the threat
    How has the threat evolved over time? We all know that what once 
was a highly centralized structure--Core Al Qaeda leadership--has been 
decimated. But, rather than disappear, it has morphed into a 
decentralized horizontal organization--composed mainly of so-called 
``affiliates.''
    Our adversaries--many of them young, digital natives--have spent 
the past few years--while the United States focused on eliminating core 
leadership--building up their propaganda elements and their recruiting 
shop. Smaller scale, easier to accomplish attacks are now the name of 
the game--in an effort to cause as much chaos as possible.
    Inspire magazine is back online and as savvy as ever. Extremist 
digital natives have created a ``Muslim Mali'' computer game that 
simulates aerial combat against French fighter jets, and is designed to 
inspire fellow extremists to take up arms against the French. Once a 
user clicks ``play,'' an Arabic message appears with the words, 
``Muslim Brother, go ahead and repel the French invasion against Muslim 
Mali.''
    These digital natives can sit in their homes or computer cafes 
anywhere in the world. What really keeps me up at night? That this 
generation will turn to cyber attacks--even small ones, because the 
information is sitting right at their fingertips. Let me be clear: the 
United States is not just facing Chinese hackers seeking ballistic 
missile blueprints or Russian hackers trying to steal credit card 
numbers. We also face nonstate actors who have drunk the al-Qaeda Kool-
Aid.
                           the next ten years
    Despite astonishing adaptation since 9/11--including a massive 
reform of the intelligence community, in which I played a fairly big 
role--Uncle Sam is still built for yesterday's threats.
    So, what do we do?
    Christopher Paul of the RAND Corporation says: ``The trick . . . is 
to apprehend or otherwise deal with [the] residual threat without 
creating a chain of events that renews motivations for participation 
and support.''
    Here are my recommendations:
1. Stop piecemeal counterterrorism policy and implementation
  <bullet> Stop stovepiped, one-off CT efforts and create a whole-of-
        government strategy. Excuses about bureaucratic inertia and the 
        number of people involved should not stop us from doing what is 
        necessary. This includes our cyber defenses.
  <bullet> Give the Department of State's CT Bureau more support to do 
        its job. The Antiterrorism Assistance Program, Countering 
        Violent Extremism grants, and coordinating efforts through the 
        Center for Strategic Counterterrorism Communications are all 
        important but just not enough. A more robust CT Bureau could 
        help us better find gaps in our nonkinetic efforts and fill 
        them.
2. Smarter investments
    Carefully analyze the foreign aid budgets and find ways to plus-up 
funds to the countries that need it most--and resist funding for the 
flavor-of-the-month countries. Foreign aid is in many cases the only 
leverage we have--and should have serious strings attached. This will 
also be a very difficult task--and requires a clear, reasoned message 
to the American people about why such targeted investments are 
necessary for the U.S. Secretary of State, John Kerry, has urged 
similar efforts as has a senior Republican Senator.
3. Live our values
  <bullet> Our actions really do speak louder than words. It should be 
        no wonder that the semantics America used in the past--when 
        extra judicial kidnapping became ``rendition,'' torture became 
        ``enhanced interrogation,'' and assassination became ``targeted 
        killing''--only fueled the terror propaganda machine. We have a 
        perception problem.
  <bullet> We must apply a matrix of our interests and our values, and 
        test against it our future engagements. Then we stand a better 
        chance at defeating the negative narrative being created about 
        us. That means paying more than lip service to privacy 
        protections, and considering legal protections, especially 
        regarding ``Big Data.'' Trying more terror suspects in U.S. 
        Federal courts--like Sulaiman Abu Ghaith--is also the right 
        move.
  <bullet> We need a public conversation about tactics and strategy, 
        and Congress should legislate clear limits. Self-policing by 
        the executive branch was wrong in the Bush 43 administration, 
        and is wrong now. I have recently suggested that FISA could be 
        adapted to cover drones and offensive cyber.
4. Reduce overclassification of intelligence
  <bullet> Far too much information is classified. Instead of 
        safeguarding our secrets, we are actually preventing ourselves 
        from seeing the bigger threat picture. If we can't see all the 
        ``dots'' of intelligence, how could we hope to get ahead of 
        future threats?
5. Drain the swamp
  <bullet> As Wilson Center Scholar Aaron David Miller suggests, we 
        will reduce the pool of potential terrorists by encouraging 
        reform efforts by authoritarian governments. Secretary Kerry's 
        efforts to persuade the Egyptians to move forward with reforms 
        are an example of what we need more of.
                               conclusion
    In conclusion, I urge this committee to play a major role in 
developing this overdue strategy. After all, it is foreign 
relationships--not more foreign enemies--that we need.

    The Chairman. Thank you very much.
    Mr. Leiter.

 STATEMENT OF HON. MICHAEL E. LEITER, SENIOR COUNSELOR TO THE 
CHIEF EXECUTIVE OFFICER, PALANTIR TECHNOLOGIES, FORMER DIRECTOR 
      OF THE NATIONAL COUNTERTERRORISM CENTER, McLEAN, VA

    Mr. Leiter. Mr. Chairman, Ranking Member Corker, members of 
the committee, thanks for having me.
    I would note that, in my 4 years at the National 
Counterterrorism Center, I do not believe I ever testified 
before the Senate Foreign Relations Committee, which, I have to 
tell you, is not a good sign, and I think it is a good sign 
that you are holding these hearings today and the Director of 
NCTC is here before you, because this is not just an intel, not 
just an Armed Services issue, this is very much for the Senate 
Foreign Relations Committee. So, I am very happy you are doing 
it.
    In my written testimony, I go through, in some detail, my 
assessment of the threat. I am not going to rehash that here, 
but I do want to highlight a few things.
    First of all, in my view, we are in a better position to 
detect and disrupt a catastrophic attack like we saw on 9/11 
than anytime since 2001. We have done very, very well in this 
fight.
    That being said, as both of you have already noted, we do 
face a fragmented threat, but I would urge this committee not 
to read too much into some of the recent events. They are 
undoubtedly tragic; I do not mean to minimize the attack in 
Benghazi and the death of four Americans, the attack in 
Algeria, the rise of AQIM. But, in terms of large-scale, 
catastrophic threats to the homeland, these are not anywhere 
remotely on the same page. They threaten U.S. interests. We 
will always, have always, and will continue to face threats in 
these regions. We must continue to battle the terrorists, as 
Jane Harman said, drain the swamp, all these things; but, on 
average, I think we should actually be enormously proud of the 
Congress, the executive branch, and, to some extent, the 
courts, in enabling a fight against terrorism that has been 
pretty successful.
    Now, I do want to highlight a couple of areas where I think 
we do face enormous challenges. We have mentioned North Africa 
already. I think the other key place that we have to really 
recognize a huge threat to the United States is Syria and what 
we see in the al-Nusra Front. We are seeing a magnet for 
foreign fighters, and we see enormous instability and tension 
between Shias and Sunnis, with access to weapons of mass 
destruction. And this is, if not an existential threat, 
certainly an existential threat to our interests in the region.
    Second, one that is, unfortunately, often forgotten in 
these hearings, Hezbollah. And especially as tensions increase 
between the United States, Iran, and Israel, and what was going 
on in Syria, we have to keep our eye on Hezbollah, who has 
gotten increasingly aggressive, both with kinetic strikes--the 
attack in Bulgaria, killing Israeli tourists--and also, 
destructive cyber attacks against Saudi Aramco and RasGas in 
Qatar. Both of these are signs that Hezbollah is, indeed, 
moving toward a more aggressive approach; the United States and 
our allies.
    Now, with that, let me offer four quick observations on 
things that I think this committee should, in fact, focus on; 
vis-a-vis, terrorism, writ large.
    First, after 10-plus years, we really do, I believe, face a 
terrorism fatigue problem. And that is, we have been talking 
about this for 10 years, and people want to move on. And that 
poses a real challenge, because we need to have discussions to 
make sure that our tools to combat terrorism are on a solid 
footing. In that regard, I am extremely heartened about the 
conversations we have seen in the public and with Congress over 
the past several months about targeted killings and potentially 
reforming the authorization for use of military force. I 
believe these are exactly the conversations we need to have so 
these do have a strong footing for the years to come.
    Second, for terrorism fatigue, I am extremely worried that, 
with every terrorist attack, we now view it as a systemic 
failure rather than, to some extent, a fact of life in 
counterterrorism work. And I am all for examining these events 
after the fact to see how we can do better, but I would plead 
with this committee that these do not become ex-post 
investigations and excoriations of terrorism professionals, 
because it will chase the good people out of government.
    Last, I do think that terrorism fatigue affects the 
executive branch, and I am very worried that things that the 
executive branch needs to push on quickly and hard, like 
information-sharing, fall by the wayside.
    Second significant issue: weapons of mass destruction. We 
are, I think, faced with small-scale attacks, no matter what we 
do. These are tragic, but we will live with them, and we will 
prosper. Weapons with mass destruction pose a very different 
threat. And securing nuclear material, trying to prevent 
improvised nuclear devices, trying to prevent complex 
biological weapons attacks, they are low-probability, but 
enormous-consequence events, and we must keep our eye on these 
things. And this committee has a huge role in that way.
    Third, counterterrorism partnerships. With terrorism 
fatigue has become a fatiguing of the partnerships that we rely 
on. And, as you said, Senator Corker, especially in regions of 
Middle East and North Africa, these partnerships, both in 
willingness and capacity, have frayed significantly, and we 
have to work very hard to work closely with our partners to 
maintain them and maintain the programs within the U.S. 
Government to support those partners.
    And, last but not least, staying on the offense on all 
fronts. And, to me, that means continuing programs of targeting 
killing, where we have to take people off the battlefield, but, 
equally if not more importantly, expanding our efforts on soft 
power, because kinetic focus has, in fact, sapped much of the 
focus within the executive branch of putting the resources and 
the time and energy into those things that take time to, as 
Jane said, drain the swamp and reduce the attraction of 
terrorism.
    And last, covering all of these things, as you all know 
from having just voted on continuing to open the government, 
after 12 years we have poured--it is difficult to estimate, but 
probably about $100 billion each year into counterterrorism 
efforts, including Iraq and Afghanistan. This money is not 
going to be there in the future. So, this is exactly the time 
that we have to do a far more rational look at mission-focused 
budgeting--not department by department, but mission--to 
understand where we can put our limited dollars that we have to 
get the biggest bang for the buck for the whole of the U.S. 
Government.
    Thank you.
    [The prepared statement of Mr. Leiter follows:]

              Prepared Statement of Hon. Michael E. Leiter

                                overview
    Chairman Menendez, Ranking Member Corker, and members of the 
committee, thank you for inviting me to testify on my perspectives on 
the evolving threat of terrorism and how it can be best addressed by 
the United States and our allies. I believe now is an opportune time to 
take stock of the threat we face and our associated response. While we 
have made remarkable strides against the threat of catastrophic attacks 
like that which we experienced on 9/11, the continued presence of al-
Qaeda in Yemen, the growing presence of al-Qaeda-associated elements in 
North Africa and Syria, and increased instability across North Africa 
and the Middle East highlight how the threat of terrorism continues. 
Combined with a fiscal reality that precludes the sort of spending we 
have maintained since 2001, this is a historic moment to rationalize 
and calibrate our response to terrorism and related threats to our 
national security.
                          the threat landscape
    Today al-Qaeda and its allies in Pakistan are at their weakest 
point since 9/11. The death of Osama bin Laden and the continued 
decimation of senior ranks has made the organization a shadow of its 
former self. Ayman al-Zawahiri is not bin Laden and although the 
organization still attempts to provide strategic guidance and global 
propaganda, its influence continues to wane. Whether this trajectory 
can be maintained with a significant decrease of the U.S. presence in 
Afghanistan and a continued challenging political landscape in Pakistan 
will be, in my view, the biggest determinants of al-Qaeda Core's 
relevance for the coming decade.
    The degradation of al-Qaeda's ``higher headquarters'' and 
relatively well-coordinated command and control has allowed its 
affiliates and its message to splinter, posing new dangers and 
challenges. Al Qa'ida affiliates or those inspired by its message have 
worrisome presences in Yemen, East Africa, North Africa, Syria, Western 
Europe, and of course to a lesser degree the United States.
    Beginning with Yemen, in my view Al Qaeda in the Arabian Peninsula 
(AQAP)--as I stated 2 years ago--continues to pose the most 
sophisticated and deadly threat to the U.S. homeland from an overseas 
affiliate. The death of operational commander Anwar al-Aulaqi 
significantly reduced AQAP's ability to attract and motivate English 
speakers, but its operational efforts continue with lesser abatement. 
As we saw in 2009, 2010, and 2012, AQAP has remained committed--and 
able--to pursue complex attacks involving innovative improvised 
explosives devices. Although some of the organization's safe haven has 
been diminished because of Yemeni and U.S. efforts, the inability of 
the Government of Yemen to bring true control to wide swaths of the 
country suggests that the group will pose a threat for the foreseeable 
future and (unlike many other affiliates) it clearly remains focused on 
transnational attacks.
    East Africa, surprisingly to many, is a brighter spot in our 
efforts. Although al-Shabaab remains a force and poses significant 
risks in the region--most especially in Kenya and to the fledgling 
government in Somalia--its risk to the homeland is markedly less today 
than just 2 years ago. Kenya's offensive in the region shattered much 
of al-Shabaab's power base and most importantly the attractiveness of 
Somalia to Americans and other Westerners is radically less than was 
the case. The relative flood of Americans has turned into a trickle, 
thus significantly reducing the threat of trained terrorists returning 
to our shores. Maintaining this positive momentum will require 
continued U.S. attention and close cooperation with the African Union 
in Somalia (AMISOM) to nurture what clearly remains a fragile recovery.
    As the world witnessed over the past 6 months, Al Qaeda in the 
Islamic Maghreb (AQIM) has shifted the focus in Africa as the 
organization has made gains in Mali, Libya, and the rural areas of 
Algeria. To be clear, to those of us in the counterterrorism ranks this 
is not particularly surprising. In my view while the attacks in 
Benghazi and on the Algerian oil facility are tragic, the major change 
to the region is not a massive increase in AQIM's attractiveness, but 
rather the huge shift that occurred with the virtual elimination of 
Libya's security services, the associated flood of weapons in the 
region, and the coup d'etat in Mali.
    AQIM has thus far proven a less tactically proficient and more 
regionally focused criminal organization than other al-Qaeda 
affiliates. Although we cannot blindly hope this remains the case, I 
would argue that we should also not read too much into recent events. 
Regional capacity building, targeted offensive measures, and forceful 
engagement with government like France, Algeria, and Libya that have a 
huge vested interest in the region should remain at the forefront of 
our strategy. And we must roundly condemn (and try to limit) the 
payment of ransoms that have proven to be the lifeblood of AQIM and its 
affiliates.
    One notable area of concern that we must forcefully combat in the 
region--and one which the United States is uniquely able to address 
given our global footprint--is the cross-fertilization across the 
African Continent that has recently accelerated. Coordination amongst 
al-Shabaab, AQIM, Boko Haram, and others is particularly problematic as 
it allows each organization to leverage the others' strengths. We must 
use our intelligence capabilities to define these networks and then 
assist in disrupting them.
    The most troubling of emerging fronts in my view is Syria, where 
Jabhat al-Nusra has emerged as the most radical of groups within the 
opposition. Given the enormous instability in Syria, which has to some 
degree already spread to Iraq and elsewhere in the Levant, Jabhat al-
Nusra has become a magnet for al-Qaeda-inspired fighters from around 
the globe. With virtually no likelihood of rapid improvements in Syria 
(and a not insignificant risk of rapid decline caused by the use of 
chemical or biological weapons), the al-Nusra front will almost 
certainly continue to arm, obtain real world combat experience, and 
attract additional recruits--and potentially state assistance that is 
flowing to the FSA.
    Moreover, Jabhat al-Nusra's ideology not only contributes to the 
threat of terrorism, but more broadly it is contributing significantly 
to the regional Sunni-Shia tension that poses enormous risks. The rapid 
removal of Bashar al-Assad would not solve these problems, but an 
ongoing civil war does in my view worsen the situation. Although there 
is no easy answer to this devilish issue, I believe that with the 
U.K.'s recent movement to providing lethal assistance to the FSA, we 
too should move more forcefully with additional aid and the creating of 
safe havens in border areas.
    Without declaring victory, we should also have some optimism about 
al-Qaeda-inspired terrorism in Western Europe and especially the 
homeland. As recent studies have shown, there has been a continuing 
decline in numbers of significant homeland plots that have not been 
closely controlled by the FBI since 2009. In addition, the relative 
sophistication of homeland terrorists has not increased. Combined with 
successful counterterrorism efforts in Western Europe--most 
particularly huge strides in the U.K.--the picture faced today is far 
brighter than just 3 years ago.
    Similar optimism cannot be applied to the threat posed by Lebanese 
Hezbollah, especially given its successful and foiled attacks over the 
past 2 years. Most notably, Hezbollah attack in Bulgaria killed six 
tourists and highlights the extent to which the group (and its patrons 
in Iran) continue to see themselves as being in an ongoing 
unconventional war with Israel and the United States. Predicting 
Hezbollah and Iranian ``redlines'' is a notoriously challenging 
endeavor--as illustrated by the surprising 2011 plot to kill the Saudi 
Ambassador to the U.S.--but both organizations almost certainly would 
launch attacks at least outside the U.S. were there a strike on Iranian 
nuclear facilities.
    There is little doubt that both Hezbollah and the IRGC Qods Force 
maintain a network of operatives that could be used for such strikes. 
In this regard the heavy Iranian presence in Latin America and Iranian 
cooperation with former Venezuelan President Hugo Chavez is of 
particular concern. Although not every Hezbollah member and Iranian 
diplomat is a trained operative, a significant number could in the case 
of hostilities enable other operatives to launch attacks against 
Israeli or U.S. diplomatic facilities, Jewish cultural institutions, or 
high profile individuals.
    In addition, and generally unlike al-Qaeda affiliates, the specter 
of Hezbollah or Iranian-sponsored cyber attacks is disturbingly real. 
Recent Distributed Denial of Service (DDOS) attacks on major U.S. 
financial institutions, as well as even more destructive Iranian-
sponsored attacks on Saudi Aramco and Qatar-based RasGas, have 
highlighted the extent to which physical attacks might be combined with 
cyber attacks.
                             looking ahead
    This threat picture, although complex and dynamic, is in many ways 
more heartening than that which we faced from 2001 until at least 2010. 
Numerous organizations continue to threaten terrorist attacks, but as a 
very general matter the threats are away from the homeland and the 
scale of the attacks is markedly less than what we saw in September 
2001 or even 2006, when al-Qaeda came dangerously close to attacking up 
to 10 transatlantic airliners. It is not that events like Benghazi are 
not tragic. But threats to U.S. diplomatic facilities in Libya are of a 
radically different type than planes flying into civilian facilities in 
New York and Washington. In this regard, this is an appropriate 
juncture to look at a few of our biggest risks and challenges.
    Terrorism Fatigue. After 10-plus years of near constant public 
discussion of terrorism--in our politics, the media, and through public 
messaging--many have simply had enough. This is not all bad as an 
unhealthy obsession with the threat of terrorism at the expense of 
countless other societal woes, such as cyber threats and Iranian 
nuclear ambitions, would in many ways hand our enemy a victory. On the 
other hand, there is real value in public discussion of terrorism: it 
can build resilience in the population and it can lead to the tackling 
of tough public policy questions like targeted killings and domestic 
intelligence. With terrorism fatigue we run a real risk of not 
addressing these issues in a way that provides a lasting 
counterterrorism framework. In this regard I actually see the current 
discussion around the use of drones and the potential for updating the 
2001 Authorization for the Use of Military Force as quite heartening 
signs.
    Terrorism fatigue poses at least two additional challenges. First, 
with all of our counterterrorism success such victories have become 
expected and any failure--no matter how small--can result in political 
finger pointing and excoriation of our counterterrorism professionals. 
In effect we have become victims of our own success and unlike in 2001, 
perfection has become a political expectation. Although we should 
continuously examine how we can improve our capabilities, we must guard 
against ex poste investigations that lack a serious appreciation for 
the ex ante difficulties of counterterrorism.
    Second, terrorism fatigue can cause dangerous lethargy within the 
executive branch on issues that do not appear to require immediate 
attention but which can do longer term damage to counterterrorism 
efforts. I have repeatedly seen urgency morph into bureaucratic 
sluggishness as time passes since the last attack on issues like 
information-sharing and interagency cooperation. Whether it is 
countering violent extremism programs or information access for the 
intelligence community, we must not take our foot off the gas pedal.
    Weapons of Mass Destruction. There is no doubt that smallish 
terrorist attacks or at least attempts will continue to occur at home 
and abroad. Such attacks can cause enormous pain and suffering to 
victims and their families, but they are clearly of a scale--at least 
with respect to absolute numbers killed--that is dwarfed by other 
societal ills such as routine criminal activity. The same cannot be 
said of terrorists' use of weapons of mass destruction--and more 
specifically biological weapons or an improvised nuclear device (IND).
    Although we have also made progress in reducing the likelihood of 
terrorists obtaining WMD, for the foreseeable future we are faced with 
the possibility that a terrorist organization will successfully acquire 
these weapons. In this case, technology is not yet our friend as the 
ease with which these weapons can be obtained and hidden continues to 
exceed our ability to detect them.
    Weapons of mass destruction pose a unique challenge as they are the 
prototypical low likelihood, high consequence event and thus 
determining the proper allocation of resources to combat them is 
particular contentious. That being said, we must continue to protect 
against the most dangerous of materials (e.g., HEU) being obtained by 
terrorists, secure weapons in the most dangerous places (e.g., Pakistan 
and increasingly Syria), and pursue research and development that will 
assist in detecting chemical and biological weapons in places where 
they would do the most harm.
    Counterterrorism Partnerships. Counterterrorism has always been and 
continues to be a ``team sport.'' Although the United States can do 
much alone, we have always been incredibly reliant on a vast network of 
friendly nations that have extended massively our intelligence, law 
enforcement, military, and homeland security reach. Even before the 
Arab Awakening we witnessed some weakening of these partnerships. 
Whether it was fatigue on our partners' part, their own resource 
challenges, or differing views on the proper scope of counterterrorist 
efforts (e.g., fights over data sharing between the United States and 
the European Union), these partnerships have been under some pressure. 
Post-Arab Awakening we face an exponentially more daunting task, having 
lost some of our most valuable partners--and key security services even 
where political leadership remains supportive--in the very places we 
need them most.
    Again, part of the challenge is that we have been a victim of our 
own success. Al-Qaeda is simply not viewed as the same existential 
threat that it was in 2001. But without robust partnerships it will be 
increasingly difficult for us to detect and disrupt rising al-Qaeda (or 
other groups') cells, thus making it more likely that they will 
metastasize and embed themselves in ways that makes them more dangerous 
and more difficult to displace.
    To maintain our partnerships we must carefully preserve funding for 
programs that provide critical capabilities--and potentially more 
important, a positive U.S. presence--for our allies. The increase in 
funding for special operations forces is a good step, but relatively 
tiny investments in Department of State and Justice programs can also 
deliver real results in this realm. In addition, we will have to 
approach new governments in the Middle East with sophistication and 
ensure they continue to view terrorism as a mutual threat.
    Staying on the Offense--on all Fronts. Over the past month an 
enormous amount has been said about targeted killings, especially of 
U.S. persons. In my view, having served under both Presidents George W. 
Bush and Obama, such targeted killings are a vital tool in the 
counterterrorism toolbox. And regrettably, in some cases that tool must 
also be used against U.S. persons like Anwar al-Aulaqi who was a senior 
al-Qaeda operational commander who was continuing to plot attacks 
against the United States.
    From my perspective, the memorandum and administration practice 
(contrary to claims by some) appropriately constrains the President's 
authority, has provided significant congressional oversight and the 
opportunity to limit the program, and provides realistic standards 
given the inherent challenges of intelligence and counterterrorism.
    As I have previously implied, however, I am equally supportive of 
the current public debate on the issue. In fact, I believe bringing 
greater visibility to some programs could be useful not only to build 
U.S. support, but also to build greater international understanding if 
not support--a key element in our ideological efforts. Moreover, I 
would suggest that the current debate highlights the need to examine 
seriously the 2001 Authorization for the Use of Military Force (AUMF). 
During my tenure at the National Counterterrorism Center the AUMF 
provided adequate authority for the use of force, but it was not always 
a simple or straightforward application. With the continued evolution 
of the terror threat and most notably its increasing distance from the 
9/11 attacks and Core Al Qaeda, I believe it is the time to reevaluate 
the AUMF to better fit today's threat landscape.
    As supportive as I am of targeted killings in appropriate 
circumstances, I am equally (if not more) supportive of ensuring that 
these are not our only counterterrorism tools employed. I do believe 
that our reliance on kinetic strikes has in some cases allowed other 
efforts to atrophy or at least pale in comparison. This is enormously 
dangerous, as we cannot strike everywhere nor can we lethally target an 
ideology. As we increase targeted killings we must double down on our 
soft power and ideological efforts--building capacity in civilian 
security forces, increasing the rule of law to diminish undergoverned 
or ungoverned safe havens, and the like--lest we win a few battles and 
lose a global war. This committee must stand at the very center of 
these efforts, as I fear in the current fiscal climate that the 
programs that support our ideological efforts will be given short 
shrift.
    Resources. Finally, and not entirely inappropriately, 
counterterrorism resources will undoubtedly decline significantly in 
the coming years. It is difficult to estimate accurately how much has 
been spent on counterterrorism over the past 11 years, but the amount 
certainly comes close if not exceeds $100 billion a year. Some of this 
was undoubtedly well spent, but it is folly to think that 
inefficiencies and redundancies do not exist widely. In this sense, a 
bit of frugality is likely a very good thing.
    The question, however, is whether we will be willing or able to 
make smart reductions to preserve critical capabilities. Our historic 
ability to direct funds where the threat is greatest--as opposed to 
where the political forces are strongest--have not been good. Perhaps 
the declining threat will mean that we can continue to spend 
imperfectly, but this is surely a dangerous bet to make.
    We should use this imposed frugality to do serious mission-based--
as opposed to Department and Agency-specific based--budgeting in the 
Federal Government. This approach will require enormous changes within 
the executive and congressional branches, but looking across the 
counterterrorism budget, identifying the critical capabilities we must 
preserve, and then figuring out how that matches Department-specific 
budgets can be done. And if we are serious about maintaining these 
capabilities we have little choice.
                               conclusion
    More than a decade after 9/11, combating terrorism isn't over. No 
one should be surprised by this fact. Nor should anyone be surprised 
that we are fighting in different places and, although some approaches 
are the same as they were in 2001, many of our tools must evolve with 
the evolving threat. Moreover, having the benefit of almost 12 years of 
national effort we are in a better place today to balance our 
counterterrorism efforts with other significant threats to our national 
security, most notably state-sponsored cyber intrusions, theft, and 
attacks, and broad instability across much of North Africa and the 
Middle East.
    Thank you for inviting me to testify, and for this committee's 
leadership on these critical issues. I look forward to working with 
this committee to ensure that we as a nation are protecting our 
citizens, our allies, and our interests from the scourge of terrorism.

    The Chairman. Thank you very much.
    Mr. Wainstein.

 STATEMENT OF HON. KENNETH L. WAINSTEIN, PARTNER, CADWALADER, 
 WICKERSHAM & TAFT, LLP, FORMER ASSISTANT TO THE PRESIDENT FOR 
     HOMELAND SECURITY AND COUNTERTERRORISM, WASHINGTON, DC

    Mr. Wainstein. Chairman Menendez, Ranking Member Corker, 
Senator Kaine, I want to thank the three of you and the 
committee for the invitation to join in this discussion of the 
evolving threat that our Nation faces today.
    And it is a particular pleasure for me to be here with my 
two copanelists and colleagues, who are proven experts in this 
field and have devoted much of their professional lives to 
protecting our country against terrorist adversaries.
    It is vitally important that we, as a nation, continually 
gauge our readiness to meet the evolving threat that we face. 
And we have seen the consequences of failing to do that 
throughout our recent history. Go back to 1941, when we were 
completely unready for the threat that struck us at Pearl 
Harbor. We built up after that and ultimately defeated the Axis 
Powers, and then the subsequent Soviet threat of the cold war, 
but then we sort of dropped our guard again a little bit when 
we failed to anticipate the looming threat that was posed by 
globally connected terrorist organizations like al-Qaeda.
    Since 9/11, the last two administrations have made 
tremendous efforts to bring our counterterrorism readiness back 
in line with the post-9/11 threat. As a result of these 
efforts, as Mike Leiter just said, we, as a nation, are 
significantly better prepared to meet that threat than we were 
on the morning of 9/11, and I think there is no better gauge of 
that than--or evidence of that than--the number of top-echelon 
al-Qaeda leaders who are no longer on the battlefield and the 
list of terrorist plots that have been foiled over the past few 
years.
    It has become clear, however, that the al-Qaeda threat that 
has occupied our attention and our focus since 9/11 is no 
longer the threat that we will need to defend against in the 
future. Due largely to the effectiveness of our 
counterterrorism operations, the centralized leadership of al-
Qaeda that directed operations from the sanctuary that it held 
in Afghanistan and Pakistan, known as al-Qaeda core, is now 
just a shadow of what it once was. The result of that has been 
a migration of operational control and operational authority 
away from core al-Qaeda into al-Qaeda's affiliates in other 
regions of the world--Al Qaeda in the Arabian Peninsula, Al 
Qaeda in Iraq, and Al Qaeda in the Islamic Maghreb, to name a 
few.
    In light of this evolution, we are now at a pivot point 
where we need to reevaluate the means and reevaluate the 
objectives of our counterterrorism program. And the executive 
branch, by all reports, is currently engaged in that process, 
and has made a number of policy shifts to reflect the altered 
threat landscape, including, for example, focusing on the 
development of stronger cooperative relationships with those 
countries, or governments in those countries, like Yemen, where 
these franchises are operating.
    It is important, however, that Congress also participate 
closely 
in that process. Over the past 12 years, Congress has proven 
its value in the creation of the post-9/11 counterterrorism 
program. It has been instrumental in strengthening our 
counterterrorism capabilities. It has helped to create a 
lasting framework and structure for the long war against 
international terrorism. And its actions have provided one 
other very important element to our counterterrorism program, 
and that is a measure of political legitimacy that can never be 
achieved through unilateral executive action, alone. Therefore, 
as Mike Leiter just said, it is heartening to see that Congress 
is again starting to ratchet up its engagement in this area, 
with a discussion of a variety of different legislative 
proposals.
    Now, in assessing these proposals, Congress should be 
guided by a pair of principles that it has largely followed 
over the past 12 years. First, it is important that any legal 
authorities that it consider be crafted in a way that permit 
operators and decisionmakers in the executive branch to act and 
react without undue delay. For instance, any scheme for 
regulating the use of targeted drone strikes should be designed 
with an appreciation for the need for quick decisionmaking and 
action in the context of war and targeting.
    Second, Congress should continue to resist any legislation 
that unduly restricts the government's flexibility in the fight 
against international terrorists. Flexibility is the key to 
operational success in counterterrorism operations, and it 
should be the watchword for any national security legislation.
    Congress is to be commended for having largely followed 
these principles over the last 12 years, and also commended for 
playing a vitally important role in the construction of our 
national counterterrorism program since 9/11, which is a role 
that Congress should continue to play in the years to come. 
And, as my colleague said, this committee is, specifically, to 
be commended for recognizing the recent evolution of the 
terrorist threat we are facing, and recognizing the need to 
reassess our strategy and our terrorism program in light of 
that evolution.
    It has been an honor to be a part of that effort today, and 
I look forward to any questions that the committee may have.
    [The prepared statement of Mr. Wainstein follows:]

               Prepared Statement of Kenneth L. Wainstein

    Chairman Menendez, Ranking Member Corker and members of the 
committee, thank you for the invitation to join in this discussion of 
the evolving threat that our Nation faces today. My name is Ken 
Wainstein, and I'm a partner at the law firm of Cadwalader, Wickersham 
& Taft. It is an honor to appear before you along with my two 
copanelists, both proven experts in this field who have devoted much of 
their professional lives to defending our Nation against its terrorist 
adversaries.
    Today's topic is particularly timely, given that we are now seeing 
a transition in the scope and nature of the terrorist threat we face--a 
transition that requires us to assess whether we have the right 
counterterrorism strategy, organization, and authorities to 
successfully meet this evolving threat.
    It is vitally important that we, as a nation, continually gauge our 
readiness to meet the threat we face. Our Nation's history since World 
War II illustrates both the importance and the mixed record of 
calibrating our readiness to meet overseas threats. In 1941, we found 
ourselves completely unready to meet the threat that struck us at Pearl 
Harbor. After building the warmaking machine that defeated the Axis 
Powers, we then recognized the new threat from the Soviet bloc and 
designed a governmental infrastructure and a foreign policy that 
successfully contained the Communist threat.
    In the aftermath of the cold war, however, we let our guard down 
again. We enjoyed the peace dividend while the threat of international 
terrorism evolved from the relatively isolated operations of the Red 
Brigades, the Baader-Meinhof gang and the other violent groups of the 
1970s into the more globally integrated organizations of the 1990s--a 
threat that emerged in its most virulent form in the network of violent 
extremists operating out of its safe haven under Taliban rule in 
Afghanistan.
    Despite its potency, we did not reorient our defenses to meet this 
threat and continued to operate with an intelligence and military 
apparatus largely designed for the cold war. As we had in the 1930s 
when the storm of fascism was gathering overseas, we failed throughout 
the 1980s and 1990s to anticipate and prepare for the looming new 
threat posed by a globally networked terrorist organization with the 
resources, the operational sophistication and the fanatical following 
to mount a sustained campaign against the United States and its allies.
    Since 9/11, the last two administrations have made tremendous 
efforts to bring our counterterrorism readiness more in line with the 
post-9/11 threat. These efforts have included a fundamental 
restructuring of our government's counterterrorism infrastructure, new 
and expanded investigative authorities for our intelligence and law 
enforcement personnel, the reorientation of our military to fight an 
asymmetric war against a nontraditional and shadowy foe, and the 
adoption of a foreign policy designed to enlist and coordinate with 
foreign partners in the global fight against international terrorism.
    Thanks to the concerted efforts of both administrations, the past 
seven Congresses and countless committed public servants, we as a 
nation are significantly better prepared to meet the international 
terrorist threat than we were on the morning of 
9/11. There is no better evidence of that fact than the number of top-
echelon 
al-Qaeda leaders who have been removed from the battlefield and the 
list of terrorist threats that have been foiled over the past few 
years.
    It has recently become clear, however, that the al-Qaeda threat 
that occupied our attention after 9/11 is no longer the threat that we 
will need to defend against in the future. Due largely to the 
effectiveness of our counterterrorism efforts, the centralized 
leadership that had directed al-Qaeda operations from its sanctuary in 
Afghanistan and Pakistan--known as ``Al Qaeda Core''--is now just a 
shadow of what it once was. While still somewhat relevant as an 
inspirational force, Zawahiri and his surviving lieutenants are reeling 
from our aerial strikes and no longer have the operational stability to 
manage an effective global terrorism campaign. The result has been a 
migration of operational authority and control from Al Qaeda Core to 
its affiliates in other regions of the world, such as Al Qaeda in the 
Arabian Peninsula, Al Qaeda in Iraq, and Al Qaeda in the Islamic 
Maghreb.
    As Andy Liepman of the RAND Corporation cogently explained in a 
recent article, this development is subject to two different 
interpretations. While some commentators diagnose al-Qaeda as being in 
its final death throes, others see this franchising process as evidence 
that al-Qaeda is ``coming back with a vengeance as the new jihadi 
hydra.'' As is often the case, the truth likely falls somewhere between 
these polar prognostications. Al Qaeda Core is surely weakened, but its 
nodes around the world have picked up the terrorist mantle and continue 
to pose a threat to America and its allies--as tragically evidenced by 
the recent violent takeover of the gas facility in Algeria and the 
American deaths at the U.S. mission in Benghazi last September. This 
threat has been compounded by a number of other variables, including 
the opportunities created for al-Qaeda by the events following the Arab 
Spring; the ongoing threat posed by Hezbollah, its confederates in Iran 
and other terrorist groups; and the growing incidence over the past few 
years of home-grown violent extremism within the United States, such as 
the unsuccessful plots targeting Times Square and the New York subway.
    We are now at a pivot point where we need to reevaluate the means 
and objectives of our counterterrorism program in light of the evolving 
threat. The executive branch is currently engaged in that process and 
has undertaken a number of policy shifts to reflect the altered threat 
landscape. First, it is working to develop stronger cooperative 
relationships with governments in countries like Yemen where the 
al-Qaeda franchises are operating. Second, they are coordinating with 
other foreign partners--like the French in Mali and the African Union 
Mission in Somalia--who are actively working to suppress these new 
movements. Finally, they are building infrastructure--like the reported 
construction of a drone base in Niger--that will facilitate 
counterterrorism operations in the regions where these franchises 
operate.
    While it is important that the administration is undergoing this 
strategic reevaluation, it is also important that Congress participate 
in that process. Over the past 12 years, Congress has made significant 
contributions to the post-9/11 reorientation of our counterterrorism 
program. First, it has been instrumental in strengthening our 
counterterrorism capabilities. From the Authorization for Use of 
Military Force passed within days of 9/11 to the Patriot Act and its 
reauthorization to the critical 2008 amendments to the Foreign 
Intelligence Surveillance Act, Congress has repeatedly answered the 
government's call for strong but measured authorities to fight the 
terrorist adversary.
    Second, congressional action has gone a long way toward 
institutionalizing measures that were hastily adopted after 9/11 and 
creating a lasting framework for what will be a ``long war'' against 
international terrorism. Some argue against such legislative 
permanence, citing the hope that today's terrorists will go the way of 
the radical terrorists of the 1970s and largely fade from the scene 
over time. That, I'm afraid, is a pipe dream. The reality is that 
international terrorism will remain a potent force for years and 
possibly generations to come. Recognizing this reality, both Presidents 
Bush and Obama have made a concerted effort to look beyond the threats 
of the day and to focus on regularizing and institutionalizing our 
counterterrorism measures for the future--as most recently evidenced by 
the administration's effort to develop lasting procedures and rules of 
engagement for the use of drone strikes.
    Finally, congressional action has provided one other very important 
element to our counterterrorism initiatives--a measure of political 
legitimacy that could never be achieved through unilateral executive 
action. At several important junctures since 9/11, Congress has 
undertaken to carefully consider and pass legislation in sensitive 
areas of executive action, such as the legislation authorizing and 
governing the Military Commissions and the amendments to our Foreign 
Intelligence Surveillance Act. On each such occasion, Congress' action 
had the effect of calming public concerns and providing a level of 
political legitimacy to the executive branch's counterterrorism 
efforts. That legitimizing effect--and its continuation through 
meaningful oversight--is critical to maintaining the public's 
confidence in the means and methods our government uses in its fight 
against international terrorism. It also provides assurance to our 
foreign partners and thereby encourages them to engage in the 
operational cooperation that is so critical to the success of our 
combined efforts against international terrorism.
    These post-9/11 examples speak to the value that congressional 
involvement can bring both to the national dialogue about 
counterterrorism matters and specifically to the current reassessment 
of our strategies and policies in light of the evolving threat. It is 
heartening to see that Congress is starting to ratchet up its 
engagement in this area. For example, certain Members are expressing 
views about our existing targeting and detention authorities and 
whether they should be revised in light of the new threat picture. Some 
have asked whether Congress should pass legislation governing the 
executive branch's selection of targets for its drone program. Some 
have suggested that Congress establish a judicial process by which a 
court reviews and approves any plan for a lethal strike against a U.S. 
citizen before that plan is put into action. Some have proposed 
legislation more clearly directing the Executive branch to send 
terrorist suspects to military custody, as opposed to the criminal 
justice system. Others have argued more generally that the AUMF should 
be amended to account for the new threat emanating from Ansar al-
Sharia, Boko Haram, and the other dangerous groups that have little 
direct connection to al-Qaeda and its affiliates or to anyone who 
``planned, authorized, committed or aided the terrorist attacks that 
occurred on September 11, 2001.'' While these ideas have varying 
strengths and weaknesses, they are a welcome sign that Congress is 
poised to get substantially engaged in counterterrorism matters once 
again.
    In assessing these and other proposals for national security 
legislation, Congress should be guided by a pair of principles that 
their legislative efforts have largely followed over the past 12 years. 
First, it is important to remember the practical concern that time is 
of the essence in counterterrorism operations and that legal 
authorities must be crafted in a way that permits operators and 
decisionmakers in the executive branch to react to circumstances 
without undue delay. That concern was not sufficiently appreciated 
prior to 9/11, and as a result many of our counterterrorism tools were 
burdened with unnecessary limitations and a stifling amount of process. 
In fact, the tools used by our national security investigators who were 
trying to prevent terrorist attacks were much less user-friendly than 
those available to criminal investigators who were investigating 
completed criminal acts. The result was slowed investigations and an 
inability to develop real-time intelligence about terrorist threats, 
like the one that hit home on 9/11.
    The Patriot Act and subsequent national security legislation helped 
to rectify that imbalance and to make our counterterrorism tools and 
investigations more nimble and effective, while at the same time 
providing for sufficient safeguards and oversight to ensure that they 
are used responsibly and consistent with our respect for privacy and 
civil liberties. Any future legislation should follow that model. For 
instance, any scheme for regulating the use of targeted drone strikes--
which may well raise myriad practical and constitutional issues beyond 
the concern with operational delay--should be designed with an 
appreciation for the need for quick decisionmaking and action in the 
context of war and targeting.
    Second and more generally, Congress should maintain its record of 
largely resisting legislation that unduly restricts the government's 
flexibility in the fight against international terrorism. For example, 
there have been occasional efforts to categorically limit the executive 
branch's options in its detention and prosecution of terrorist 
suspects. While there may well be good principled arguments behind 
these efforts, pragmatism dictates that we should not start taking 
options off the table. We should instead maximize the range of 
available options and allow our counterterrorism professionals to 
select the mode of detention or prosecution that best serves the 
objectives for each particular suspect--development of intelligence, 
certainty of successful prosecution, etc.
    Flexibility should also be the watchword when approaching any 
effort to amend the Authorization for Use of Military Force. The 
diffusion of terrorist threats that has led to the call for amending 
the AUMF is bound to continue, and new groups will likely be forming 
and mounting a threat to the United States in the years to come. Any 
amended AUMF must be crafted with language that clearly defines the 
target of our military force, but that also encompasses all such groups 
that pose a serious threat to our national security.
    Congress is to be commended for having largely followed these 
principles in its legislative efforts over the past 12 years and for 
playing a vitally important role in the construction of our national 
counterterrorism program since 9/11--a role that it should continue to 
play in the years to come.
    This committee is specifically to be commended for recognizing the 
recent evolution of the terrorist threat and the need to assess our 
counterterrorism program and policies in light of that evolution. It 
has been an honor to be a part of that effort, and I will be happy to 
answer any questions you may have.

    The Chairman. Well, thank you all for your insights.
    And I see we have had several colleagues join us.
    So, let me start off with exploring some of what you have 
suggested a little greater in depth.
    Most of the government's most critical counterterrorism 
effort takes place at the strategic level, from countering 
violent extremism programs to the Global Counterterrorism 
Forum. Have we done enough, though, to target the recruitment 
pipeline? And how can we enhance our efforts to undercut--I 
think it goes to Congresswoman Harman's comments--the extremist 
narrative and address the grievances that are the underlying 
fuel instability? Any thoughts on that?
    Ms. Harman. Well--by the way, it is a great personal 
pleasure to see ``Senator'' Murphy. I have not called him that 
yet, so--a former colleague.
    That is what I was really talking about. We have to win the 
argument with this pipeline of potential recruits. And we 
cannot win the argument if all we are doing is playing ``Whac-
a-Mole,'' as I call it, knocking off some folks, whom we should 
either apprehend or kill, depending on what the options are. 
Obviously, capturing is a better option, I think, when it is 
possible. But, nonetheless, if that is all we are perceived to 
do, if we have a drone-centric foreign policy, I do not think 
that wins the argument.
    And therefore, both Mike and Ken have suggested things that 
we can do. I think we should put a strict legal framework 
around the use of drones. Congress should do this. I have 
recommended that we could bring drones under the FISA 
framework, which most in Congress supported, including then-
Senator Obama. And these FISA courts, I--although some 
disagree--I think can work to improve the framework for the use 
of drones--not the operations, but the framework. And Congress 
can provide oversight. That is just one example of how we could 
win the argument with potential recruits, because then we have 
a rules-based program for the use of force against certain 
high-value targets.
    The Chairman. Yes.
    Mr. Leiter. Mr. Chairman----
    The Chairman. And maybe--I invite your answers, but let me 
specify my question a little bit more. It seems that having a 
framework for the use of drones, assuming you give the 
flexibility necessary that was referred to here, may be 
desirable, but, at the end of the day, we do not win hearts and 
minds because we have a rule framework about how we might 
strike at somebody. We win hearts and minds because we change--
or, we work to change the realities of their lives on the 
ground.
    I mean, the Arab Spring, in my mind, is a challenge of a 
very young population, mostly in or near poverty, having no 
future--the aspirations for the future not on the horizon with 
any possibility of that future----
    Ms. Harman. Yes.
    The Chairman [continuing]. Being better, and then having 
that despair being manipulated against--whether it be the West 
or Israel or others.
    So, should not our policy consider--and this might be a 
longer term context, but, nonetheless, we are in this for--
despite fatigue, we are in this for a while, it certainly seems 
to me--aren't there other things that we should be considering?
    Ms. Harman. Yes.
    The Chairman. Yes.
    Mr. Leiter. Mr. Chairman, in my view, this has been--and 
this is a self-indictment, since I was in both administrations, 
and we did not effectively do this, in my view--countering 
violent extremism, that ideological fight, has been woefully, 
in my view, underfunded and under-focused-on, compared to the 
kinetic piece. Now, there are a variety of reasons for this. It 
is really easier to get funding for weapon systems that are 
built in people's districts than it is to build up a mini-army 
of people who are going to work the Web and get our message out 
there, and counter al-Qaeda's message from the basement of the 
State Department. It is much easier to see tangible results 
from a kinetic strike, using a drone or anything else, than it 
is to understand, you know, a 1-point or a 2-point change in 
perceptions in the United States, as opposed to bin Laden. That 
is a much longer program, which requires much greater patience.
    So, in my view, we can do a couple of things on this front. 
First of all, I do think, again, we have significantly 
underfunded ideological efforts at the State Department; to 
some extent the Department of Homeland Security; and the people 
who actually have the most money to do these sorts of programs, 
the Department of Defense. Now, with all respect to my Defense 
colleagues, they tend to be the worst people to actually carry 
the message that the United States is not at war with Islam, 
because they are wearing uniforms. So, we have to reallocate 
funds to the people who can responsibly go out and take this 
message.
    Second, this is about acts and not just words, so we have 
to maintain foreign-aid programs and rule-of-law programs that 
are now going to help work with these emerging democracies, 
which we hope are democracies. And we have to work closely with 
them even if some of their views are very much in tension with 
some of our interests. These are two quick things that I would 
offer.
    I do think that there is something heartening, also, about 
the Arab Awakening, though, Mr. Chairman. And I would offer 
that, frankly, al-Qaeda's message did not drive the Arab 
Awakening. 
Al-Qaeda was largely irrelevant to the Arab Awakening, and it 
is exactly the motivation that you identify, as opposed to a 
purely al-Qaeda-driven: we must get rid of the old regimes and 
move in through violence. The Arab Awakening proved that you 
can do this without violence. And, in that sense, we actually 
have an opportunity, now, going forward; although we have lost 
partners and we have lost some counterterrorism kinetic 
capability, this was actually a win for us, ideologically.
    Mr. Wainstein. Mr. Chairman, if I could just follow up on 
that last--Mike's last point.
    I think the challenge was clear, from the beginning of the 
Arab Spring, that there is going to be a bit of a tradeoff for 
the United States. In the short term--if you are looking at the 
Arab Spring just through the counterterrorism lens--in the 
short term we were going to lose partners who had been reliable 
in the efforts against terrorism. And we have seen that. We 
have certainly lost some partnerships. We have lost some 
cooperation that we used to be able to rely on in that part of 
the world, a very volatile part of the world. But, the long-
term solution for terrorism is not just, you know, stamping out 
the fires, day by day, it is to change the circumstances under 
which people live in that area. And the Arab Spring was a way 
to do that as a source of hope for democracy and economic 
development; and it was very important that the United States 
was seen on the side of the people who were looking for reform.
    The additional danger, as Mike pointed out, though, is, al-
Qaeda now is getting a foothold in some parts of the Arab 
Spring; whereas, they were completely irrelevant to the 
beginning of it. And so, it is all the more important that we 
solidify whatever cooperative relationships that we can before 
al-Qaeda gets more of a foothold.
    The Chairman. You know, it seems to me that one of our--and 
I will turn to Senator Corker next--it seems to me that one of 
our challenges, as we think about this, whether it is the rules 
of engagement, the question of Congress revisiting the 
authorization of under what set of circumstances we use force--
but, one of the key questions that we seem to sweep under the 
rug, which is the whole question that I was trying to get to 
you, I think several of you alluded to, which is that there is 
an underpinning here, of people's economic circumstances. And 
unless we deal, whether through partnership with others--and 
that is why I would be interested, when I come back, after the 
other colleagues get their chance here to question you--about 
what partnerships really work and how we could foster 
partnerships that look at, for example, development assistance. 
We have a challenge here on foreign aid, in general, even 
though it is, approximately 1 percent of the Federal budget, it 
is one of the most powerful tools that we have, especially when 
I look at this universe. You are just not going to do this by 
striking at individuals, which I agree, those who, in fact, are 
of great threat to the country and you can capture, because if 
you could capture them, you would want to capture them for the 
information flow that comes from that then you have to strike 
at them, but in the longer term, the changing of the dynamics 
here comes from how we engage in changing people's lives. And 
we cannot do that alone, but we certainly could engage in 
partnerships to do that. And the messages that flow from that 
are pretty dramatic, I think.
    And it is something I would like to explore, because we are 
going to be having some challenges as we look at our budget and 
we look forward--and, as you said, we are not going to have 
$100 billion in counterterrorism money, moving forward, in the 
foreseeable continuous future. So, then the question is, How do 
we change the dynamics? How do we get better bang for our buck? 
And how do we change the underpinnings? That is what I am 
looking to get at.
    With that, Senator Corker.
    Senator Corker. Thank you, Mr. Chairman.
    The Chairman. Senator Murphy, if you would take over the 
chair while I----
    Senator Corker. He is moving from Senator to chairman 
awfully quickly, but--it is an amazing thing. So--yes. 
[Laughter.]
    So, again, thank you for your testimony. And I appreciate 
all the comments regarding some of the softer pieces, if you 
will, that need to be pursued. And I agree that those certainly 
have not been pursued in the way they should.
    And I want to go back to the legal case first. And I think 
each of you have said, look, al-Qaeda is more amorphous and, 
you know, spread around. Core al-Qaeda's been, basically--I 
will use somebody else's word--``decimated.'' But, it also 
makes it--does it not?--much more difficult to tie the groups 
that we are actually pursuing today back to 9/11, which is what 
generated the authorization for the use of military force on 
September 18. I think all of you would agree, it is very 
difficult to tie these groups back to that authorization. Is 
that correct?
    Mr. Leiter. Yes.
    Ms. Harman. Yes. And I would add that, those of us who 
voted for it--I certainly did; everyone except for one Member 
of Congress voted for it, as I recall--thought it would be 
limited in time and space. I never imagined that it would still 
be in force over a decade later and would be used by the 
executive branch to underpin a huge variety of actions against 
disparate enemies. That does not mean that there should not be 
a legal framework. I think there should be a legal framework. 
But, maybe one that is more attuned to the new threats, and 
also the goal of, I would say, Senator Corker--the goal of 
winning the argument, not just ``whacking'' people. That is our 
challenge now. And unless we can win the argument, there will 
be more and more people in more and more countries who are able 
to produce propaganda tools to recruit more and more people.
    And so, that is why I said, in my testimony, that we need a 
whole-of-government approach to counterterrorism, which 
certainly includes diplomacy and development as tools. We need 
smarter investments. We need foreign aid budgets that do not 
just pick the flavor-of-the-month country, but that bear down 
on those countries that are the most serious threats, and 
perhaps condition aid based on changing some government 
policies. And then, we do need to live our values. And that 
means that everything we do should be rules-based.
    Senator Corker. So, I believe, in order for that to happen, 
in order for Congress and the executive branch to work together 
to drive that kind of effort, I really do think this entire 
authorization needs to be updated, and I think the debate that 
comes from that will cause people to look at what you are 
saying, and drive that. Otherwise--you know, as you mentioned, 
I mean, there is fatigue; people really do not want to deal 
with it. The executive branch is dealing with it.
    And, candidly, as we travel in the field, most of the folks 
that we deal with, in intelligence and other places, say there 
is a very thin thread, if any, back to the original 
authorization. And I think all of you are agreeing with that.
    So, let me just ask you, on that point, What would be--I 
know we have talked about the idealism issues. I know there are 
all kinds of things we need to do to help people understand our 
values and all those kinds of things. But, if you got back to 
the authorization of military force, what would some of the 
characteristics be of this one that are different from the one 
we put in place on September 18?
    Mr. Leiter. Senator, I would, first, say that, in my view, 
the current AUMF is too broad, too narrow, and too vague. It is 
too broad, because, as Jane Harman said, we are now 12 years 
later, and I think a lot of people, when they voted for it, did 
not quite realize that it would still be applying. It is too 
narrow, because, honestly, by the end of my tenure in the U.S. 
Government, you were having to do some shoehorning to get some 
groups or individuals in there that posed a very clear and 
imminent threat to the United States into the language of the 
AUMF. And it is too vague, because I think it is very difficult 
to look at it and say, How would that apply to a group like 
Jabhat al-Nusra?--which the American people and this Congress 
should know, up front.
    So, my suggestion would be that you have some--first of 
all, I would commend the Hoover Institution report on the AUMF, 
on reforming the AUMF. I think it is quite good. I don't agree 
with every word of it. I think it is a good theoretical way of 
considering what has to be changed.
    In my view, there should be some process, somewhat similar 
to the designation of terrorist groups, that happens through 
the State Department now, where groups are nominated by the 
executive branch, they are approved by the executive branch, 
then there is some period for the U.S. Congress to review 
whether that group should be included in a new authorization of 
military force. And I would say that should include groups that 
pose a near-term threat to the United States through acts of 
terrorism. And that is going to be broader than al-Qaeda 
affiliates, but it will also give the Congress some opportunity 
to, not necessarily vote, but to at least review executive 
branch determinations of the types of groups that the executive 
branch thinks should be targeted. That is how I would approach 
it.
    Senator Corker. Kenneth.
    Mr. Wainstein. Senator, I subscribe to the idea of having a 
list, and the Executive can then propose that additional groups 
be put on that list as those groups become a serious threat to 
the United States. And that was one of the points I made in my 
initial remarks, that it needs to be a system that is flexible 
enough to account for the changing situation, because the 
threat picture today is going to be very different a year from 
now, and radically different 10 years from now. So, I think 
something along the lines of what Mike just described would be 
perfect.
    Let me just sort of go up to 30,000 feet for a second. 
There are a couple of benefits to Congress considering this, at 
this time or any time. First, by looking at possibly revising 
the AUMF, it will be a recognition of what I think many of us 
have known for years, which is, this effort against terrorism 
is a long-term war. It is going to be around for a long time. 
This is not a threat that is going to go away once we destroy 
core al-Qaeda. It is going to extend well beyond 9/11 and the 
years since 9/11. So, it will be sort of a national recognition 
that we need to account for the fact that this is going to be a 
permanent state of life.
    Also, as I mentioned in my initial remarks, right now the 
administration seems to be able to shoehorn their activities 
into the AUMF, and what they have done seems to have been 
covered 
by the law. But, there really is an element of Congress lending 
legitimacy to their actions when Congress deliberates over the 
authority that it is considering giving to the executive 
branch, looks at all the implications of it and vests that 
authority in the executive branch. I think it is good for all 
branches, and I think it would be good for our counterterrorism 
program.
    Ms. Harman. Could I just raise one caution? Because I was 
thinking about this as both Mike and Ken were talking.
    I am not sure Congress should give a blanket authorization 
for the use of force. I think Congress' role is to consider 
carefully different circumstances around different assertions 
of the use of force. And I do not mean that every 2 days, 
Congress has to consider some terrorist organization that we 
have not heard of before, and authorize the government to do 
something specifically there. But, Congress' role in oversight 
and legislating has to be much more assertive than it has been, 
in my view, over the last 12 years. And one size does not fit 
all. That is one point.
    The second point is, calling this the ``war on terror,'' as 
many have, I think has not helped us win the argument. Terror 
is a tactic. How do you fight a war against a tactic? That was 
modified by the Obama administration to say it was a ``war on 
al-Qaeda and affiliates.'' I thought that was an improvement. 
But, again, I think we should be careful with our language. And 
perhaps this committee, the Foreign Relations Committee, that 
does do positive-sum things--passes a foreign aid budget, helps 
us project diplomacy, not just kinetic power in the world--
should consider some form of authorization or some process for 
oversight that weighs other factors in addition to the use of 
force.
    Senator Corker. Well, I could not agree more. And again, I 
think a real debate about how broad, how narrow, how vague, how 
blanket an authorization is, I think will drive us to focus on 
all these things, which we have not been focusing on. So, I 
could not agree more. And I think the administration--I do not 
know where they are. I mean, on one hand, they are able to do 
whatever it is they wish; and many people in Congress like 
that, because they have no ownership over the outcome. But, I 
do think that, you know, there is almost no thread of tieback 
to where we were. I think it is time to update this and to 
create another authorization that is different. And I do think 
we should take some ownership over this and, hopefully, drive a 
little bit different approach to how we deal with this.
    This is long term, you are exactly right. There is not 
going to be a finite end. And I think this whole debate would 
help invigorate the approach, and actually overcome the fatigue 
that we are talking about. It still is a threat, we still have 
issues of nation-states that we have to deal with. And 
obviously that is a whole nother component. But, this is one 
that certainly we need to be paying attention to for a long, 
long time.
    And I thank you for your testimony.
    Senator Murphy [presiding]. Thank you, Senator Corker.
    I will take it as no coincidence that Congresswoman Harman 
showed up and I got elevated to chairman, so I appreciate your 
bumping me up.
    I want to fit in two questions, one on winning the argument 
and one on Syria.
    Congresswoman Harman, you talked about working with 
actions, not just words. Or it actually may have been Mr. 
Leiter. And I have a question about how actions that we take 
here in the United States are viewed abroad, and to what extent 
they factor into the recruitment tools.
    After September 11, there was, frankly, a remarkable 
restraint showed in this country, in terms of anti-Islamic and 
Islamic-phobic--Islamophobe behavior. That worm has turned in 
the last 8 years, and whether it is State legislators looking 
at bans on shariah law or mosques being ridden out of 
neighborhoods or advertisers pulling their money from shows 
about Muslim families in the last 5 to 10 years, we have seen a 
remarkable increase in some pretty bad behavior toward the 
Islamic religion here in this country.
    And I guess my question--and I will direct it to you first, 
Congresswoman Harman--is, How much does this matter? How much 
does this matter, when set against the other drivers of 
recruitment, whether it be our drone policy, our military 
policy, or economic factors within these regions? How much 
should we be paying attention to this turn that's happened in 
the United States, I would argue, in the last 5 years or so, as 
a means toward trying to ultimately win this argument across 
the globe?
    Ms. Harman. Well, Chairman Murphy--has a nice ring--it 
matters a lot. I actually think our record is mixed. There are 
some good stories, too. Let us remember that, shortly after 9/
11, a Sikh, not a Muslim, I think, gas station attendant was 
murdered by a mob just because he looked like he might have 
been Muslim, or that was what the folks who murdered him 
thought; and it was a black eye for America, that that 
happened. And there have been some very bad actions.
    On the other hand, I know quite a bit about Los Angeles, 
where I am from and where my congressional district was, and 
the police department there, and the sheriff's office, have 
made major efforts to reach out for Muslim communities and to 
have advisory task forces and so forth, both to project a 
friendly image, but also, it is very smart policing, because if 
you build trust in a community, they are more likely to come 
forward and identify some of these folks who have clean records 
but who are contemplating some very bad deeds.
    And, in fact, if I remember this, right in Virginia, there 
were five guys, who moved to Pakistan, who were plotting 
against America, and they were identified by their own 
community. These were kids, college-age or high-school-age 
kids, who were basically identified by their own communities so 
they could be apprehended, stopped.
    So, it is a big part of the counterterrorism--of a good 
counterterrorism strategy to project tolerance and build 
positive relationships with a community that 99 percent of 
which is peace-loving and patriotic Americans. And those are 
the folks in the United States, and it is true around the 
world, too.
    And one other fact to point out, and that is that more 
Muslims have been the target of terror attacks by al-Qaeda and 
affiliates than have non-Muslims. So, hopefully, the community 
itself--again, if we project the kind of relationship we 
should--will push against its own bad apples. That is a big 
part of the solution here.
    Senator Murphy. Any thoughts from----
    Mr. Leiter. I guess I call you Senator or Half-Chairman at 
this point, Senator Murphy. [Laughter.]
    Senator Murphy. Same thing.
    Mr. Leiter. At some risk, I am going to disagree with my 
friend Jane Harman. I, frankly, think that these are bricks in 
a wall, and the wall is the narrative that the United States is 
at war with Islam. And if the United States--if there was a 
lack of Islamophobia in the United States, al-Qaeda would still 
attack the United States, without a doubt. They are factors, 
but they are not driving, and I do not think they are 
dispositive factors.
    The piece that I think is most important about this, 
besides the fact that, from my perspective, it is abhorrent and 
un-American and, you know, horrible that we would judge anyone 
by their religion in this country--the piece that I do think is 
important is, it undermines the willingness, in many cases, of 
the American Muslim community, which is the single most 
important community to messaging to the rest of the Muslim 
world that the United States is not at war with Islam--it makes 
it less likely that they are really going to be motivated to 
help and be a part of this fight. You know, despite all the 
Islamophobia, they are.
    And I adamantly reject the view that the American Muslim 
community has not spoken out against al-Qaeda. The American 
Muslim community that does that does not get a lot of press 
time, but I have worked with Muslims for the past 8 years who 
are adamantly against them.
    But, when they see Islamophobia, they are less likely to 
stand up and say, ``America is a great place to be, and the 
United States is not at war with Islam.'' And that is an 
important set of messengers that we can either embrace or chase 
away.
    Senator Murphy. Mr. Wainstein, if I could just turn to my 
second question, regarding Syria, which is connected to your 
comment about some of the optimism that comes out of the Arab 
Spring, in that, (a) anti-Americanism was not necessarily a 
driver of those revolutions, and (b) we were largely seen as 
being on the right side of those conflicts. What are the 
lessons, then, that we draw to the current conflict in Syria? 
Certainly, a lot of concern has been expressed, in this body, 
about whether or not, when Assad falls, we will be perceived on 
the right side, and what consequences that ultimately has for 
the very bad actors affiliated with extremist groups to hold 
sway in a democratic or semidemocratic process that plays out 
once Assad is gone.
    Mr. Wainstein. Senator, that is a very good question. And, 
in many ways, Syria is sort of the perfect storm, because it 
has developed into this civil war of horrific proportions, a 
human tragedy on a major scale. And then you throw in the 
prospects that it is now also the launching pad for a 
rejuvenated al-Qaeda presence in that part of the world, and, 
you know, it is the perfect conditions for 
al-Qaeda.
    Obviously, you know, we have--as a matter of foreign 
policy--we have every reason to see the Assad regime get 
ushered out, but we also want to make sure that what comes in 
after he leaves, or is kicked out, is something that is hostile 
to al-Qaeda and is accom- 
modating to our interests.
    I know it is a balancing act, and the administration is in 
a tough position because they are trying to sort of keep al-
Qaeda suppressed, but, at the same time, try to help the 
opposition, which, in many ways, is indistinguishable from al-
Qaeda, in certain quarters.
    So, I think that it is a tough one to draw lessons from, 
because it is the perfect storm.
    Senator Murphy. But, would you agree, today, that we are 
not perceived to be on the right side of this, and the danger 
is, is that if circumstances change and Assad goes, in the next 
several weeks or months, that, unless our disposition changes, 
that we are not really balancing that question very well right 
now?
    Mr. Wainstein. Right. You can see where we have been with 
other countries. Just take Libya and our decisions as to how 
and when to get involved, and how much to be involved, and how 
that was calibrated, and how that turned out. I think, in Syria 
right now, if Assad were to walk out, there would be a large 
percentage of the incoming government who would think that we 
were not there for them. And so, if they are looking for 
support, they would be less likely to look to us and more 
likely to look to other regimes that are less friendly.
    Senator Murphy. Thank you, Mr. Chairman.
    The Chairman [presiding]. Senator Kaine.
    Senator Kaine. Thank you, Mr. Chair.
    I am intrigued with the winning-the-narrative argument that 
the Chairman raised and, Congresswoman Harman, that you raised 
in your testimony. And I am thinking of the winning-the-
narrative argument in a slightly different way. So, one way to 
do it is to be truer to our principles and portray the right 
values to the world, and to do it in such a way that our own 
Muslim-American population feels like they can communicate the 
message. But, another thought that I have is a narrative does 
not have to be won by us, it can be won by other nations and 
other actors, globally, that can offer a countermodel to 
terrorism as a path to success.
    And so, although this is not my area of the world, I would 
say, you know, a Turkey, that is a cochair with United States 
in the global counterterrorism forum, that has a growing GDP, 
that is a nation, you know, that is in the Muslim world, but 
that has a strong, kind of, economic track record now, that, on 
the sectarian-to-secular scale, is a little more over to the 
secular side than many; or a Morocco, with a constitutional 
monarchy, where the king is a lineal descendant of Mohammad, 
again with some tradition of respect for religious liberty, but 
strong--obviously, a strong Muslim nation, and an economy that 
has been stronger than some others--you know, helping our 
allies, you know, elevate their posture so that there is an 
alternative success model for young populations that are prone 
to be recruited into terrorism, that a success model is, you 
know, a functioning--more or less functioning government and a 
path to economic success.
    So, some of the winning-the-narrative is not just about us, 
but I think some of the winning-the-narrative is about nations 
that many in these countries might feel more immediately akin 
to than us in helping them tell their stories. And I am just 
intrigued by that, especially, I guess, as a result of Turkey's 
role in cochairing this global counterterrorism forum with the 
United States. And I would just be interested in your thoughts 
on that.
    Ms. Harman. Well, I strongly agree with you, and I think 
there is a big opportunity right now, especially given a 
reasonably close relationship between President Obama and Prime 
Minister Erdogan, of Turkey, to work together in partnership to 
do more, together, to frame a narrative and show a model to 
other parts of the region.
    That is not to say that some of the recent actions of 
Turkey have been attractive. The anti-Israel and anti-Semitic 
rhetoric is horrible, and I think we have to condemn it. But, 
by and large, Turkey offers a more moderate model of an 
Islamist society.
    Islamist political parties are not necessarily bad. I think 
it is much better to have these religious parties inside the 
tent than trying to blow up the tent, which is the al-Qaeda 
model. So, I am for that. But, I do agree that there are some 
models better than others.
    And final comment on the Arab Awakening, because--we have 
talked about that. And certainly, the aspirations of the people 
who overthrew their government are enormously impressive, and 
their personal courage is impressive. But, some of these 
governments--new governments--have yet to succeed in a way that 
reflects democratic pluralism or tolerance. And that is very 
worrisome. Which is another reason why better models should be 
out.
    So, you know, I strongly favor collaboration with Turkey to 
do this, and think you have a great idea.
    Senator Kaine. Additional thoughts on that?
    Mr. Leiter. Senator, I think you can look across and 
outside the region throughout the Muslim world for some really 
good examples. The United States partnership with Indonesia has 
been fantastic. And you may remember, in 2001-2002, people 
talked about how Indonesia could be the next Afghanistan, next 
home of al-Qaeda. And it simply has not. And why? Because the 
Indonesians have taken this seriously because of significant 
foreign aid, good intelligence, and good defense partnerships. 
Real success story.
    I think the transition that Jordan is going through, slowly 
moving toward greater democratization in that region, in the 
heart of a region that has been affected by al-Qaeda--a very, 
very important example.
    I absolutely agree with Jane Harman, as well, that, in 
places like Libya and Egypt, two very different challenges, we 
have to use our foreign aid in ways that makes them walk the 
right path, but we also have to take a very sophisticated look 
at the pressures they are under and who are in these 
governments. And we cannot simply look and say, ``Oh, they are 
a member of x group. We cannot work with them on anything.'' If 
we do that, we will cut off our nose to spite our face.
    Senator Kaine. Well, one additional question, a kind of a 
separate topic. I am on Armed Services, as well, and we have 
been having a series of briefings by commanders in different 
AORs--AFRICOM and Southern Command--talking a lot about things 
like the drug trade--really, criminal networks from South 
America to North America, or across the Atlantic into Africa 
and then up to Europe. And it always strikes me, as we are 
talking about these criminal networks, if it is easy to move 
drugs, if it is easy to do human trafficking, if it is easy to 
move arms, if it is easy to move cash, it would be easy to 
move, you know, nuclear materiel or something else that could 
cause a significant challenge. And so, it strikes me that part 
of our counterterrorism challenge is the disruption of criminal 
networks that are not, in and of themselves, part of the same 
group of people that are terrorists, but that are now getting 
so blended together, or at least have a financial interest in 
working with people who have terrorism as a motive. And the 
more hearings I go to, the more nervous I get.
    Mr. Leiter. Senator, I actually just spent 2 hours, before 
this, with staff from Senator Rockefeller's office and Senator 
Reid's office, talking about illicit networks, and you are 
absolutely right that it is simply the movement of people, 
materials, and, to some extent, ideology and money, and it is 
all the same networks. And especially as we have seen in North 
Africa, the Tuaregs and what they have enabled. It was 5 years 
ago; it was drugs and other things. And now it is weapons, 
Libya, and the like.
    So, we have to get better at those networks. Those networks 
require not just traditional military force, which is in this 
region, but requires real enabling by us, in terms of aid and 
significant training on the Customs front, Department of 
Homeland Security, law enforcement, DEA. We have to look at 
this in a more holistic way than we have in the past.
    Ms. Harman. That is why----
    Mr. Leiter. Thank you.
    Ms. Harman [continuing]. I just--if I might add something--
--
    Senator Kaine. Yes.
    Ms. Harman [continuing]. I advocated a whole-of-government 
approach to counterterrorism. If you just stay in silos and 
think, ``What can the State Department do?'' or, ``What can the 
Homeland Security Department do?'' you are not going to get at 
this problem. You have to put all the pieces together and 
remember that instead of a top-down structure that we saw on 9/
11, now we have a horizontal structure of loosely affiliated 
groups, and some of them are criminal networks, and they are 
parasitic. They attach to each other for the purpose of funding 
an operation or moving goods, and then they disconnect. And we 
really have to see all of this as linked, and we have to think 
about how it will evolve. It won't look this way in 3 months or 
a year.
    And they use the most modern technology. We should not 
assume that we are better digital natives than they are. These 
are the kids in the cafes who are inventing, I think, state-of-
the-art cyber attacks and other things. And if you ask, What 
should we worry about at 3 a.m.? We should worry about these 
kids and what they are up to.
    Senator Kaine. Thank you.
    And thank you, Mr. Chairman.
    The Chairman. Thank you.
    One last set of questions, because you have been so 
gracious with your time. The whole question of ``drain the 
swamp.'' What do you envision--and I invite any of you and, 
Jane, you specifically mentioned it--but, what do you envision 
as the elements that you would promote to ``drain the swamp''?
    And, second, what are the partnerships that have 
particularly worked well or the partnerships that we have not 
engaged in yet but that we should be engaging in toward this 
goal?
    Any of you want to--it is a ladies-first----
    Ms. Harman. All right. Well, I think we have talked about a 
number of them already. You know, ``draining the swamp.'' I 
said whole-of-government approach, looking at foreign aid not 
as a flavor of the month, making sure that some of these 
programs in the State Department are considered in a broader 
context, which is, Do they really help our CT capability, or 
not?
    But, I think some other things that were raised--
partnerships with other countries; and this is the other piece 
that no one has discussed yet, and that is public/private 
partnerships. The private sector has many tools that--and a lot 
of agility that the public sector does not have. And especially 
if you look at create--I would not say ``changing''--inventing 
education systems and models that fit some of these countries. 
Illiteracy is a huge terrorism recruitment tool. If people do 
not have any hope that they can change their circumstance, they 
can be more easily recruited. They also cannot get employed if 
they lack basic skills.
    So, I think there are approaches to this that the private 
sector, in particular, has, and the NGO community, that we 
should lash onto, that would magnify, geometrically, our 
capability.
    Mr. Leiter. Senator, I would offer, first, on the words 
front. 
Domestically, we have to do a better job of actually engaging 
the American Muslim community in this. The U.S. Government is 
pretty darn bad at this. Different elements of the government 
are OK at it. The FBI has some skills at it. The DHS has some 
skills. But, overall, we have not effectively engaged the 
American Muslim community.
    Second, we have to accept that what the United States says 
about Islam on a global basis is generally dismissed. We are 
not a credible speaker on this subject. So, what we ought to 
seek to do, following on what Jane said, is, we ought to seek 
to empower moderate voices, rather than be the amplifier, 
ourselves. We have to provide funding so people can understand, 
so American Muslim groups and other Muslim groups around the 
world who counter 
al-Qaeda's message know how to use the Web and can actually 
counter al-Awlaki's message, or inspire his message more 
effectively, and they know how to use those tools. If it comes 
from a U.S. Government speaker, it probably is not going to be 
that effective.
    On the acts front--because just the words without acts is 
simply hollow rhetoric--the pieces that have worked incredibly 
well for us in the past, disaster relief has been spectacular. 
If you look at the--not all the time, but what we have done in 
Pakistan for disaster relief and the like, Indonesia with the 
earthquake and tsunami--these sorts of programs, which really 
show a nonmilitary face, or perhaps a military face, but a 
military face using--doing humanitarian acts, have been 
incredibly effective.
    Last, but not least, we should not think that we are going 
to win this alone. In part, we should simply be highlighting 
how bankrupt al-Qaeda's ideology is. If you look at the 
countries that have seriously rejected al-Qaeda--places like 
Jordan--it was not because of anything we said; it was because 
of al-Qaeda's acts. And we have to get better at showing how 
bankrupt the ideology is, how successful something like an Arab 
Awakening peaceful revolution can be, versus the killing of 
Muslims that al-Qaeda brings.
    To me, those are the three main components that I would 
advocate for.
    Mr. Wainstein. Mr. Chairman, if I could just follow on 
Mike's comments about the domestic side. We have talked about 
outreach and countering radicalization here in the United 
States, and whether those efforts have translated into a 
positive message going out--emanating from the United States 
out to the rest of the world. Keep in mind, I think we all 
recognize this, but that message is also important here in the 
United States, as a counterterrorism matter, because we are 
seeing, more and more over the last few years, the phenomenon 
of homegrown terrorism, and we have people who are getting 
radicalized, here within our midst, in a way that did not 
happen before.
    It has not happened to the degree that we saw over in 
Europe in the early '00s; in part, I think, because the Muslim 
community here in the United States--those communities 
generally feel a lower level of alienation than many of the 
communities over in Europe. But, we are starting to see an 
uptick over the last few years, and that is troubling.
    And I believe that messaging that comes out from the United 
States Government--whether it is the prosecution of hate crimes 
or the FBI going out and doing outreach to the Muslim 
community--directly translates into a diminution of any 
interest on the part of your potential recruit to actually move 
up to the level of being an extremist.
    And so, it has a very tangible impact on our national 
security here in the United States. And, the better we get at 
detecting the movement of terrorists around the world--and 
therefore, being able to interdict terrorists when they come 
into our country--the bigger the threat from terrorists who are 
here--who are ourselves. And so, that message is important.
    The Chairman. Senator Corker.
    Senator Corker. I will just--one last question.
    Again, I appreciate the testimony and look forward to 
talking to you all as we move along.
    And I want to change the subject. I know you all have 
talked about a lot of things that I agree with, on the soft 
side, the message side, and in trying to deal with some of the 
economic issues that drive this. But, back to the 
authorization, and back to dealing with what we actually do, 
kinetically or in other ways.
    As we are looking at a potential different type of 
authorization, do--when we deal with people kinetically--do 
they have to pose a direct threat to the United States? And 
does that threat have to be against U.S. facilities here at 
home, or can they be U.S. facilities abroad? Or can the United 
States, through--or should the United States, through an 
authorization like this, actually target--and I know I am using 
a word that you all have said we should not use--but, should we 
direct our activities toward people that, candidly, just 
disagree with our way of life, and maybe tried to hamper other 
Western societies? I mean, how do you--as you walk down that 
chain, how do you deal with an authorization in a way that 
really gets at the threat that we now have?
    Ms. Harman. Carefully, is my answer. I do not think we want 
to trade the AUMF, which is outdated and designed for a 
different problem, for something that may be updated but is 
overly broad. I would suggest, first, that we understand what 
current and future threats are, and we define them carefully, 
if we are thinking about one statute. And I am not sure it is a 
good idea to think about one statute that would be the 
predicate for all of our actions. But, at any rate, that is 
where I would start.
    The second point that I would make is, there should be an 
explicit statement that U.S. interests or U.S. persons have to 
be involved in order for us to target an individual. There 
should be no other reason to do it, unless we are in a--you 
know, in a ground combat or a--some kind of situation that fits 
the standard law-of-war definition, which this probably, 
presumably, would not.
    Senator Corker. But, can I just----
    Ms. Harman. I----
    Senator Corker. Can I just--let me just ask you, on that. 
So, you know, I was just in Mali, and you have got three groups 
who have come together in northern Africa, with--by the way, 
with very differing reasons for being together. The Tuaregs 
actually have a political issue that has caused them to be a 
part of the conflict. It is not really, maybe, even a full 
insurgency, from that standpoint. But, you have--you know, it 
is criminality that people are dealing with there. They are, 
you know, a threat to Mali. They are a threat to Western 
thinking.
    So, how would we--let us say we were in partnership, today, 
in a little different way, maybe more like the French are, on 
the ground--how would you differentiate? I mean, you know, a 
lot of this is just pure criminality. I mean, you've got 
hostage-taking, you've got drug-running. At some point, they 
may pose a threat. How do you deal with that?
    Mr. Leiter. Senator, I would disagree a little bit with my 
friend Jane, in that I--first of all, I would--let me say, 
unequivocally--you know, you said, ``Should we target people 
who we just disagree with?''--we should only be targeting 
people who pose a threat of violence.
    Now the question becomes, ``Violence toward whom? And how 
imminent must that violence be?'' And, in my view, certainly 
violence toward the United States, our interests globally; that 
would be enough. It would not have to be a threat to the 
homeland.
    Second, I do believe that we should have some authorization 
to use force against groups that pose a threat of violence 
against our allies in this fight. Because if we are talking 
about building up partnerships, one of the ways you build up 
partnerships is when your friends in x country come to you and 
say, ``These guys are planning a terrorist attack against us 
now. We cannot target them. They are part of a group that has 
targeted you in the past, but now they are targeting us.'' It 
is very important that we can assist them with military force. 
So, in fact, you build that partnership up.
    So, I think it should not be limited only to threats 
against the United States. We should have some more expansive 
language to use force against our close allies in this global 
fight.
    And, in terms of imminence, I would not use language, as 
was used in the justification for targeting Americans--U.S. 
persons, American citizens, by--that was released recently--or, 
not released, but obtained. I think that is appropriate for 
targeting U.S. persons; but for non-U.S. persons, I would 
include a looser standard that--not ``imminent,'' but some sort 
of immediacy, beyond imminence, so that, if there were 
historical plotting and the organization was still aligned 
against us, we could use military force.
    But, the key is, Whom are they using force against, and how 
close is it? And I think, on both those, there does need to be 
some operational flexibility, as my friend Ken Wainstein said.
    Senator Corker. So, your friend Jane seems to be differing 
with you.
    Ms. Harman. Well, I am differing. I certainly think we 
should prevent and disrupt plots against us around the world, 
and we should use appropriate means to do that. That is not 
always kinetic means. I think we would agree about that. But, 
if Congress is acting--this is why I am pausing--I think some 
very broad statement of U.S. interests in and aiding our 
allies, and so forth, will end up backfiring. I think it should 
be something much narrower. We do have agreements with allies, 
and we have section 5 of NATO, which----
    Senator Corker. Right.
    Ms. Harman [continuing]. Is a common defense provision. And 
those things should stay in place. But, Congress legislating 
all this in one blanket statute, I would find--if the goal is 
to come up with a narrative that is going to persuade others to 
join us, I think this would not be a constructive part of that 
narrative.
    Senator Corker. Ken.
    Mr. Wainstein. If I may, Senator, just if I could follow 
on, on what Mike said. In terms of imminence, there has been a 
good bit of talk about the imminence of the threat that al-
Awlaki posed at the time that he was killed, and people said, 
``Well, you know, he didn't have his finger on the trigger, and 
he wasn't about to set off a bomb.'' But that is not the 
imminence you need, whether it is an American or a non-
American. He had a clear track record of targeting the United 
States, of fomenting and bringing recruits in to commit 
terrorist acts against the United States. It was clear, the 
threat that he posed.
    But, I think it is important to recognize that, if you 
adopt a scheme, such as what Mike was describing--where 
different terrorist groups are found to be terrorist 
organizations and put on a list, and the government's now 
authorized to use military force against those organizations--
then we are at war with those organizations.
    And, traditionally, when you are at war against a state 
actor, you do not have to wait for the soldier to pull a gun 
out at you before you kill him. You can kill him on the 
battlefield, and you can kill him as he is preparing and 
getting poised to come out at the battlefield. So, imminence 
that is well back from the battlefield can justify the use of 
force in a war. And in this war against terrorist 
organizations, I think that same paradigm would apply.
    Ms. Harman. If I could just add one more thing. I think it 
would--we were totally justified in the action we took against 
Awlaki. No question about it. There was a strong predicate 
there. He was inciting people to commit violent acts in the 
United States, and there was a long track record. And the fact 
that he was an American did require us to be careful in how we 
identified him. But, we were, and we did the right thing, in 
that case.
    However, I think, as we go forward, saying, as Ken just 
did, ``We are at war with a number of organizations,'' is a 
storyline that is troubling. We are trying to tell a story 
about America that is a positive story to persuade kids not to 
become suicide bombers and terrorists. And Congress has a big 
role in deciding how we tell that story. Yes, there should be 
legislative oversight and specific legislation to authorize 
kinetic acts. But I, again, would caution that it should 
deliver a message that is not just about being at war; it 
should deliver a message about trying to find ways to win the 
argument and to be at war as a last resort against those who 
are beyond rehabilitation.
    Mr. Leiter. Senator, I know we are over time, but I just 
want to--I have to clarify one thing that Jane said.
    Anwar al-Awlaki was not just inciting Americans, because I 
think there is a question whether simply being--inciting 
violence would be enough to be targeted. Anwar al-Awlaki was an 
operational commander who was actively recruiting and training 
bombers who were trying to blow up planes over the United 
States.
    Ms. Harman. And I agree with that. I--that was--inciting 
people to commit violent acts was one of the things he was 
doing. I think we were totally justified.
    And one more point that none of us has raised, which is 
that Congress is entitled to see the legal documents prepared 
by the Office of Legal Counsel in the Department of Justice, in 
my view, that authorize acts like the targeting of Awlaki. Some 
of those documents should only be seen, I think, in classified 
settings and by appropriate committees, but, nonetheless, it is 
not OK--and I think Ken said this, as well--for the executive 
branch to police itself. I think we have seen that movie 
before, and what should happen is, the separation of powers 
should work, and Congress should have the ability to conduct 
adequate oversight and to legislate.
    The Chairman. Well----
    Mr. Wainstein. May I just respond?
    The Chairman [continuing]. You will have the last word, 
because we are going to have to close out the hearing.
    Mr. Wainstein. OK. Just to respond to Congresswoman 
Harman's point. She makes a good point about the messaging.
    When I talk about war in this context, I am just making the 
point that when Congress authorizes the use of military force 
against an organization, we are using the tools of war against 
an organization. Nobody should fool themselves. War is what it 
is, and so we draw on the traditions of war.
    But, Jane makes a very good point about the messaging. And, 
you know, the more we talk about being at war with terrorism, 
the more that is misconstrued by the Muslim world, and used 
against us.
    So, I think the terminology now from the executive branch, 
about ``being at war with al-Qaeda'' is dead on, because we are 
at war with al-Qaeda, but not with anybody who is not an 
adherent of al-Qaeda. I think it is important to draw that 
distinction, and it is important, as Jane said, just to keep 
mindful of the language we use, because that has real-life 
impacts on our relationships overseas.
    The Chairman. Well, this has been incredibly helpful, and 
it has been insightful, and obviously there are some 
differences of opinion, when we get to this authorization, on 
what is the universe of it and what it looks like. But, it has 
been helpful to start that conversation.
    So, again, with the thanks of the committee for all of your 
insights, your past service to our country, and for your 
forbearance today, it has been very helpful to us.
    The committee's record will stand open until Friday for any 
members who have any questions.
    And, with that, this hearing is adjourned.
    [Whereupon, at 5:55 p.m., the hearing was adjourned.]

                                  <all>

</pre></body></html>
